                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




             LIMITED SCOPE AUDIT REPORT

                                    ON SELECTED
                                   NEA GRANTS TO

   PENNSYLVANIA COUNCIL ON THE ARTS
                                      Harrisburg, PA

                               REPORT NO. LS-09-01

                                        April 3, 2009




                           REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be
posted on the National Endowment for the Arts (NEA) website not later than three (3) days after it is
made publicly available with the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                         INTRODUCTION

BACKGROUND
The Pennsylvania Council on the Arts (PCA) is a state agency in the Office of the Governor, created by
legislative act of the Pennsylvania General Assembly in 1966 with its headquarters located in Harrisburg.
The PCA’s mission is to foster the excellence, diversity, and vitality of the arts in Pennsylvania. The PCA
accomplishes its mission through a combination of grants to the arts; partnerships and initiatives, technical
assistance to partners and applicants and serving as a resource for arts-related information.


OBJECTIVE AND SCOPE
The objective of this limited scope audit was to determine whether:

       The grantee fulfilled the financial and compliance requirements as set forth in the grant awards;
       The total project costs claimed under the grants were reasonable, allocable and allowable;
       The required match was met on NEA grant funds; and
       The objectives for which the grants were awarded were actually accomplished.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and other
auditing procedures that were considered necessary under the circumstances. The “Standards” require that
we obtain sufficient, competent, and relevant evidence to afford a reasonable basis for our findings and
conclusions.

During the period under review, the PCA had nine National Endowment for the Arts (NEA) grants active
with awards totaling $4,088,800 (see Appendix A). Our audit was limited to three grants in which NEA
funds had been drawn down and costs had been reported. The NEA is the federal oversight agency for the
PCA.


PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General (OIG) has not issued any audit reports on
Federal grants awarded to the PCA. However, the PCA was included in the State of Pennsylvania’s OMB
Circular A-133 audit for year ended June 30, 2007. There were no findings indicated in the State’s A-133
audit report that were applicable to the PCA. The State’s financial statements were jointly audited by the
Department of the Auditor General and Ernst & Young, LLP, an independent public accounting firm, for
the year ended June 30, 2007. The independent audit resulted in an unqualified (clean) opinion on the
financial statements.




                                                      1
                                        RESULTS OF AUDIT
Our audit concluded that the PCA fulfilled the financial and matching requirements and met the objectives
for which the grants were awarded. PCA’s financial management system is administered in conjunction
with the Commonwealth of Pennsylvania’s Office of the Budget/Central Services Comptroller. The review
of the documentation provided, indicated that the PCA adequately tracked grant costs. However, we found
that the PCA did not maintain adequate documentation on subrecipients and inaccurately reported expenses
on its Final Descriptive Report (FDR). In addition, we found that the PCA did not have a completed
Section 504 self-evaluation on file and did not consistently submit final report packages timely.


FINANCIAL REPORTING
As indicated above, the PCA’s financial management system, adequately accounted for grant costs reported
on the final Financial Status Report (FSR). During our review of the financial documentation provided by
the Office of Administrative Services, we were able to reconcile grant costs and determine that those costs
were reasonable, allocable and allowable. However, our review of costs reported by the PCA’s
subrecipients and then reported on the FDR found the following deficiencies:

   1. The Statistical Section - Totals Page could not be reconciled. Several sections of the report could
      not be reconciled. For example, the FDR for Grant No. 06-6100-2026 noted “Other NEA” costs,
      Part A as $379,712, which did not equal Part B Columns 2 through 6, which was listed as $292,412.
      Also, Part B Column 1-5 “total expenses” was reported as $691,200 instead of the grant amount of
      $788,500, as required.

   2. The Statistical Section – Detail had duplicate and incomplete financial data. In some cases,
      duplicate financial data (expenses, income and in-kind) was listed for subrecipients, which received
      more than one award. In other cases, no financial data was reported. Therefore, expenses for
      subrecipients were both over and under reported on the FDR. We also found that the PCA, in some
      cases, reported subrecipient’s financial data from the previous fiscal year.

       The NEA’s General Terms and Conditions for Grants and Cooperative Agreements to
       Organizations (General Terms) refers to the Financial Management Guide for State & Local
       Governments, which states the following:

       Recipients must have accounting structures that provide accurate and complete information about all
       financial transactions related to each Federally-supported project.

The PCA staff explained that the duplicate and incomplete data may be the result of inaccurate data
retrieved from the electronic file that PCA uses to collect data from the subrecipients. In addition, they
stated that the instructions for completing the FDR are unclear. The staff also explained that, in some
cases, the recipient data was reported from the previous year’s grant because of timing issues.
Subrecipients may not have submitted their current financial data by the time the NEA final reports are due.
During our site visit, the Grants and Fiscal Officer, was working with the NEA state and regional specialist
to correct the FDR. PCA should implement procedures to ensure reports are reviewed for accuracy and
completeness before submitting to the NEA.
                                                       2
FINAL REPORT PACKAGES

The PCA was late in submitting its FSRs and FDRs for the following selected grants:

       Grant No. 06-6100-2026        FDR Due:      11/29/07    Received:   02/08/08
       Grant No. 06-5500-7122        FDR Due:      03/30/08    Received:   03/05/09
       Grant No. 06-4557-7058        FSR Due:      09/28/06    Received:   11/01/06
       Grant No. 05-6100-2018        FDR Due:      03/31/07    Received:   07/12/07

The NEA’s General Terms states:

       A Final Report package including the Final Descriptive Report (FDR), the Financial Status Report (FSR), and
       any required work products(s) must be submitted no later than 90 days after the project period end date.

The PCA needs to ensure that final report packages are accurate and submitted timely.



RECORDS RETENTION
During our review, we found that the PCA did not adequately maintain subrecipients’ documentation.
Some subrecipients’ files lacked pertinent documentation such as applications, final reports and financial
data. In some files, we found duplicate forms or documentation from other grants, which had been
misfiled. As noted in the NEA’s General Terms:

       All grantees and cooperators are expected to maintain a state of “audit readiness” (i.e., to have records pertinent
       to the financial and programmatic aspects of an award readily accessible for audit…)

       You must keep subgrantees’ report submissions on file for three years from the date you submit your Financial
       Status Report to the NEA.

The PCA needs to ensure that subrecipients’ documentation is complete and maintained for a period of
three years from the date of its FSR submission to the NEA.


SECTION 504 SELF-EVALUATION
The PCA did not have the required Section 504 self-evaluation on file. As noted in NEA’s General Terms,
“A Section 504 self-evaluation must be on file at your organization.” A Section 504 Self-Evaluation
Workbook, which can be completed online, is available at www.arts.gov/about/504Workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to enter facilities
and participate in programs and activities. It does not require that every part of every facility or program be
accessible. The important considerations are that individuals with disabilities have the same opportunities
in employment, the same opportunities to enter and move around in facilities, the same opportunities to
communicate and the same opportunities to participate in programs and activities as non-disabled people.

                                                           3
Further, it is important to offer employment, programs, and services in settings that are integrated rather
than to segregate individuals with disabilities with special programs.

We recommended that the PCA conduct a Section 504 self-evaluation. The PCA did complete and submit
a Section 504 self-evaluation prior to the issuance of this report. Therefore, no further action on this
finding is necessary.


EXIT CONFERENCE
An exit conference was held with the PCA’s Deputy Executive Director and the Grants & Fiscal Officer on
November 21, 2008. Subsequent to our site visit, a telephone exit conference was held with the Executive
Director on December 11, 2008. PCA officials concurred with our findings and recommendations.
.

                                     RECOMMENDATIONS
We recommend that the PCA:

1. Implement procedures to ensure that the FDRs are accurate and properly completed. Those procedures
   should ensure that the employees, who prepare the FDRs, are familiar with the NEA reporting
   requirements.

2. Implement procedures to ensure that the Final Report packages are submitted within the required 90
   days after the period of support end date.

3. Implement procedures to ensure that PCA maintains a state of audit readiness, including maintaining
   subrecipients’ documentation for a period of three years from the date of its FSR submission to the
   NEA.

4. Implement procedures to ensure that subrecipient data reported on the FDRs, retrieved electronically or
   in hard copy format, is accurate and current.




                                                      4
                                 PENNSYLVANIA ARTS COUNCIL
                        SCHEDULE OF GRANTS SELECTED FOR AUDIT


       Grant                                                          Reported
       Amount          Grant Number           Grant Period             Costs                   Project Description


        $788,500       06-6100-2026*         07/01/06 – 08/31/07      $ 5,416,588       Purpose was to support partnership
                                                                                        agreement activities.

         $25,000       06-5500-7122*         07/01/06 - 12/31/07      $    100,000      Purpose was to support continuation
                                                                                        of folk arts support centers.

           $8,000      06-4557-7058*         09/01/05 - 06/30/06       $    20,000      Purpose was to support state
                                                                                        participation in Poetry Out Loud
                                                                                        National Recitation Contest and State
                                                                                        level finals.

        $731,000       05-6100-2018*         07/01/05 - 02/31/06       $      **        Purpose was to support partnership
                                                                                        agreement activities.

         $35,000       05-5500-7111          01/01/06 - 06/30/07       $      **        Purpose was to support regional folk
                                                                                        arts support centers.

        $759,700       04-6100-2011          07/01/04 - 12/31/05       $      **        Purpose was to support partnership
                                                                                        agreement activities.

         $30,000       04-5500-3079          09/01/04 - 12/31/05       $      **        Purpose was to support regional folk
                                                                                        arts support centers.

        $916,600       08-6100-2001          07/01/08 - 12/31/09       $     ***        Purpose was to support partnership
                                                                                        agreement activities.

        $794,700       07-6100-2012          07/01/07 - 12/31/08       $     ***        Purpose was to support partnership
                                                                                        agreement activities.



     Awards for the nine grants totaled $4,088,800.
*     The final reports for these grants were submitted after the required 90-day deadline.
** These grants were not reviewed due to time limitations.
* * * These grants were not selected for audit since no costs were reported under the two grants.




                                                                5
